                                                 U. S. Department of Housing and Urban Development
                                                                          Office of Inspector General
                                                                         New York-New Jersey Office
                                                                        26 Federal Plaza – Room 3430
                                                                           New York, NY 10278-0068



                                                          MEMORANDUM NO: 2012-NY-1801

May 17, 2012

MEMORANDUM FOR: Luigi D’Ancona, Director, Office of Public Housing, 2APH



FROM:        Edgar Moore, Regional Inspector General for Audit, New York-New Jersey, 2AGA

SUBJECT: New York City Housing Authority Hotline Complaint
         Case Number HL-2011-0705


                                       INTRODUCTION

We performed a review of the New York City Housing Authority’s use of Federal funds. We
selected this auditee based on a hotline complaint, case number HL-2011-0705. On May 20,
2011, the U.S. Government Accountability Office referred a confidential complaint alleging
waste and mismanagement of Federal funds at the Authority to the U.S. Department of Housing
and Urban Development, Office of Inspector General (HUD OIG), Program Integrity (hotline)
Division. On June 23, 2011, the Division referred the hotline complaint to Region 2’s Office of
Audit for review. The complaint alleged a pattern of waste, overspending, and abuse by the
Authority. Specifically, the complaint alleged that the Authority (1) froze its Section 8 vouchers
due to lack of available funds, (2) overpaid at least one housing manager with an annual salary of
$187,000, (3) paid 51 defense attorneys more than $4 million annually, and (4) used Section 8
Federal funds to inefficiently lease office space. The objectives of the review were to determine
whether the complaint alleging waste and mismanagement of Federal funds at the Authority had
merit and whether there were indications that the Authority did not operate in accordance with
HUD requirements.

This report contains two recommendations. In accordance with HUD Handbook 2000.06, REV-
4, within 60 days, please provide us, for each recommendation in this memorandum, a status
report on (1) the corrective action taken, (2) the proposed corrective action and the date to be
completed, or (3) why action is considered unnecessary. Additional status reports are required
90 and 120 days after this memorandum is issued for any recommendation without a
management decision. Also, please furnish us copies of any correspondence or directives issued
because of this review.
Should you or your staff have questions, please contact Karen A. Campbell, Assistant Regional
Inspector General for Audit, at (212) 542-7977.


                               METHODOLOGY AND SCOPE

To accomplish our objectives, we

               Obtained and reviewed HUD handbooks, public and Indian housing (PIH)
               notices, Code of Federal Regulations requirements applicable to our review
               objectives, and the New York Code for Public Housing;

               Interviewed HUD and Authority staff;

               Reviewed the Authority’s audited financial statements, general ledger, annual
               contributions contract, 5-year operating budget, employee union contracts, board
               meeting minutes, and board of directors certificates of appointment if applicable;

               Reviewed the Authority’s procurement policies and procedures and summarized
               bidding and selection documentation;

               Reviewed the Authority’s payroll documentation for housing managers, in-house
               attorneys, and its board of directors;

               Analyzed Authority office space leasing rates and contracts for 250 Broadway
               and 90 Church Street, New York City; and

               Reviewed documentation related to HUD Section 8 funding.

We selected a nonstatistical sample of two invoices to perform limited testing of tort legal
expenditures. The two invoices we tested totaled $29,764 of the more than $11.1 million in total
tort legal expenditures. We performed our onsite work from October 2011 to January 2012 at
the Authority’s office, located at 250 Broadway, New York City, NY. The review period
covered January 1, 2010, to September 30, 2011, and was expanded as deemed necessary.


                                       BACKGROUND

The Authority was created in 1934 and provides public housing for low- and moderate-income
residents throughout the five boroughs of New York City. It is the largest public housing
authority in North America and is considered to be the most successful big-city public housing
authority in the country. Whereas most large public housing authorities in the United States
(Chicago, St. Louis, Baltimore, etc.) have demolished their highrise projects and in most cases,
replaced them with lower scale housing, the Authority’s developments continue to be fully
occupied. Most of its market-rate housing is also in highrise buildings, and the Authority
maintains a long waiting list for its apartments. In addition, it administers a citywide Federal

                                                2
Housing Choice Voucher program, which it calls the Section 8 Leased Housing program. HUD
provides funding for rent subsidies for those tenants eligible for the Section 8 voucher program.
The Authority is governed by a board of directors, which oversees the activities of the Authority.
The board of directors includes three commissioners and a resident board member. The New
York State Public Housing Law Section 402 provides for the appointment of three full time paid
Board members and a resident Board member. The appointments are made by the Mayor of the
City of New York.


                                   RESULTS OF REVIEW

Our review determined that although the facts of some allegations were substantiated, the four
complaint allegations pertaining to waste and mismanagement of Federal funds at the Authority
did not violate regulations and thus, required no further action. Specifically, the allegations
related to (1) frozen Section 8 vouchers, (2) housing manager salaries, (3) office space rentals,
and (4) unreasonable legal expenditures did not conflict with regulations and did not warrant
further audit work. However, although the Authority compensated three of its commissioners
with salaries and a resident board member with a stipend, Authority officials did not have
adequate documentation to support how the salaries were determined and were unable to provide
a personnel action request for the board chair. A personnel action request is an in-house form
used by Authority officials to document a budget-approved salary for each member of the board.
The specific results of the review are discussed below.

Section 8 Vouchers
The allegation related to frozen Section 8 vouchers was valid and substantiated; however, the
freezing of Section 8 vouchers is allowable. Due to calendar year 2009 Federal budget cuts,
which caused the Authority to experience an operating shortfall of $ 8.1 million, it did not have
sufficient funds to lease up the pending Section 8 vouchers that had not yet resulted in an
executed housing assistance payments contract. The October 23, 2009, Notice PIH 2009- 44
(HA) provides that a public housing authority may stop issuing turnover vouchers and consider
pulling back outstanding vouchers for applicants searching for housing that have not yet resulted
in an executed housing assistance payments contract.

Housing Manager Salaries
The complaint allegation regarding an overpaid housing manager did not have merit because
housing managers’ salaries are set by a union contract. The complainant alleged that the
Authority overpaid at least one housing manager with an annual salary of $187,000. As of
September 30, 2011, the Authority’s housing manager payroll list did not include any housing
manager salary exceeding $80,887. Therefore, the Authority complied with its union contract,
which dictates that housing manager salaries fall within the range of $59,087 to $80,887,
effective January 1, 2010. There was no indication that the Authority did not operate in
accordance with HUD requirements pertaining to housing manager salaries. However, a review
of the Authority’s payroll documentation disclosed that the employee mentioned in the complaint
as a housing manager was actually a member of the board of directors, who earns an annual
salary of $187,147 (see board of directors salaries section below).



                                                3
Commercial Office Space
The complaint allegation related to the Authority’s office space rental rates at 90 Church Street
and 250 Broadway, New York City, had no merit. The complainant alleged that the Authority
was wasting Federal funds by being located in two locations, specifically 250 Broadway and 90
Church Street, a New York City Federal facility. The allegation was not valid because (1) the
leases for both office locations were noncancellable, with commencement dates of September 1,
2004, and January 1, 2000, and term leases expiring in 2024 and 2019, respectively, and (2) a
private assessment of commercial market rental rates showed that rental rates paid by the
Authority for both locations were less than market value. Further, according to Authority
officials, the unoccupied space in 90 Church Street and 250 Broadway was the result of a
reduction in employees and a mandatory cessation in hiring. Therefore, we recommend that the
Authority be instructed to conduct an office space analysis to explore the possibility of
reallocating existing spaces at 250 Broadway and 90 Church Street. Despite our
recommendation to conduct an office space analysis, there was no indication that the Authority
did not operate in accordance with HUD requirements.

Legal Expenditures
The complainant alleged that the Authority paid more than $4 million annually in legal
expenditures for its 51 defense attorneys, 10 of whom were retained attorneys with compensation
of $90,000 annually. There were 21 retained attorneys, including 18 responsible for tort cases
and 3 responsible for nontort cases, who performed work for the Authority during the audit
period, January 1, 2010, to September 30, 2011. Of the 21 retained attorneys, 14 were each paid
more than $90,000 annually. The allegation regarding compensation of more than $4 million
annually and retained attorneys being paid more than $90,000 annually was valid. During the
audit period, the Authority used Federal funds to pay $11.2 million in attorney compensation
related to tort cases. The legal expenditures were justified as the Authority maintained the
appropriate supporting documentation for its tort cases. Further, it used non-Federal funds to pay
approximately $1.4 million in attorney compensation related to nontort cases. However, during
our audit period, the Authority exceeded one of the nontort retainer agreements by approximately
$50,000. It paid $1.15 million to a law firm for nontort legal work, although a March 11, 2010,
amendment to the December 18, 2009, nontort retainer agreement allowed only $1.1 million.
Nevertheless, we did not take exception since the Authority used non-Federal funds for the
nontort legal work; therefore, these expenditures were outside the scope of our review.

The complainant also alleged that the Authority’s 41 in-house attorneys earned salaries from
$60,000 to $77,000. There were 91 in-house attorneys, including 31 managerial attorneys with
salaries ranging from $80,371 to $173,542, and 60 nonmanagerial attorneys with salaries ranging
from $60,354 to $82,015. The Authority complied with its union contract, which stipulates that
in-house nonmanagerial attorney salaries must fall within a range of $52,482 to $105,712. Thus,
the allegation regarding salaries ranging from $60,000 to $77,000 annually for nonmanagerial
attorneys was true; however, we did not take exception since the salaries fell within the union
contract range.

Board of Directors Salaries
While determining whether the allegation pertaining to housing managers earning as much as
$187,000 had merit, our review of annual payroll documentation disclosed that three members of
the Authority’s board of directors earned annual salaries ranging from $187,147 to $197,364 and

                                                4
the fourth member, the resident board member, was paid a $250 monthly stipend. However,
Authority officials did not have adequate documentation to support how the salaries for the board
of directors were determined. According to an Authority official, the initial salary of a successor
board member was based on the previous board member’s departing salary. We did not take
exception with the board of directors being compensated. The New York Code for Public
Housing, article 13, title 1, section 402, allows the Authority to compensate its board members as
long as they work full time, and the resident board member can receive a $250 monthly stipend.
In addition, the Authority paid the board of directors’ salaries using non-Federal funds, which
complied with its annual contributions contract. Specifically, part A of the July 1995 contract,
section 14, Employer Requirements, provides that “No funds of any project may be used to pay
any compensation for the services of members of the housing authority (HA) Board of
Commissioners.” However, Authority officials should be instructed to establish a written
process related to the assignment of board members’ salaries or compensation, thus ensuring that
the Authority’s basis for the salaries is fair, reasonable, and documented in its personnel files.
There were no further indications that the Authority did not operate in accordance with HUD
requirements, as it relates to the board of directors’ salaries.


                                        CONCLUSION

Our review determined that the four allegations did not violate regulations and the Authority paid
its board of directors’ salaries with non-Federal funds. Thus, there were no indications that the
Authority did not operate in accordance with HUD requirements pertaining to the four complaint
allegations and the board of directors’ salaries.


                                   RECOMMENDATIONS

We recommend that the Director of HUD’s New York City Office of Public Housing instruct
Authority officials to

1A. Conduct an office space assessment to determine whether it is cost effective to reallocate
    existing space at 250 Broadway and 90 Church Street.

1B. Establish a written process regarding the assignment of its board of directors’ salaries to
    ensure that the Authority sets the salaries at reasonable levels and documents this process.




                                                5
Appendix A
         AUDITEE COMMENTS AND OIG’S EVALUATION

Refer to OIG Evaluation   Auditee Comments




Comment 1




                            6
Refer to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




Comment 3




Comment 4




                            7
Refer to OIG Evaluation         Auditee Comments

             Auditee Comments




Comment 4




                                  8
                           OIG Evaluation of Auditee Comments

Comment 1     Authority officials state that on February 16, 2012, the Office of Facility
              Planning and Administration issued its final report on NYCHA’s central office
              space assessment. However, OIG was not notified about the completion of the
              report until April 16, 2012, subsequent to the completion of the onsite audit work.
              Nevertheless, we reviewed the space assessment report, which proposed nine
              different scenarios for cost consolidation. Officials advised at the exit conference
              that they have decided to vacate and offer for commercial rent the 12th floor at 90
              Church Street, as well as floors 24 through 29 at 250 Broadway, as proposed in
              Scenario 2. The action taken by the authority officials to conduct an office space
              assessment are responsive to our recommendation, which will be recorded in the
              departmental audit resolution tracking system as an implemented final action
              when the audit memorandum is issued. However, HUD officials, during their
              monitoring, may want to verify whether NYCHA staff has been relocated to save
              costs.

Comment 2     Authority officials contend that the salaries of the Board of Directors is set by the
              City through local law, nevertheless, the officials agree that NYCHA should have
              a documented written process regarding the assignment of salaries to ensure that
              they are set at reasonable levels. Thus, the officials agree to work with the City of
              New York to obtain documentation that prescribes how the salaries of NYCHA's
              Board of Directors are established so that the recommendation can be
              implemented.

Comment 3     Based on Authority officials’ written comments, we have revised the first
              paragraph on page 3 of the memorandum to reflect that the New York State
              Public Housing Law Section 402 provides for the appointment of three full time
              paid Board members and a resident Board member.

Comment 4 Authority officials contend that $62,078 ($26,000 + $36,078) was paid under an
          earlier retainer agreement with Ballard Spahr LLP, therefore, the total amount
          paid to the law firm under the retainer agreement and a subsequent amendment
          was approximately $1.09 million ($1.15 million less $62,078), which is within the
          $1.1 million cap. Although Authority officials are now stating that they did not
          exceed the amount of the December 18, 2009 retainer agreement and subsequent
          amendment, they did not provide support for their position. As a result, since
          during the audit Authority officials confirmed that approximately $1.15 million
          was paid under the December 18, 2009 retainer, which exceeded the contract
          amount by $50,000; we did not make any changes to this memorandum related to
          their new statement. Furthermore, we did not take exception for exceeding the
          nontort retainer agreement by approximately $50,000 since it was determined that
          officials used non-Federal funds for the nontort legal work.




                                                9
